TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Risk Management Efforts Could Be
                  Improved With Clearly Defined Procedures
                     and Expanded Information Sharing



                                       September 2, 2011

                              Reference Number: 2011-10-096




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


RISK MANAGEMENT EFFORTS COULD                           TIGTA believes the IRS can better ensure its
BE IMPROVED WITH CLEARLY DEFINED                        risk management activities are effectively
PROCEDURES AND EXPANDED                                 coordinated and its resources are allocated
INFORMATION SHARING                                     efficiently to manage those risks that may impact
                                                        its ability to achieve organizational goals.
                                                        TIGTA also determined that the IRS’s
Highlights                                              Modernization and Information Technology
                                                        Services (MITS) organization is in the early
Final Report Issued on September 2, 2011                stages of developing a more formalized risk
                                                        management framework supported by a
Highlights of Reference Number: 2011-10-096             dedicated executive. This initiative should be
to the Internal Revenue Service Chief Financial         monitored by the IRS to study the potential
Officer and Director, Office of Research,               benefits and the costs and steps involved in
Analysis, and Statistics.                               moving long term towards a more formal
                                                        IRS-wide risk management process.
IMPACT ON TAXPAYERS
                                                        WHAT TIGTA RECOMMENDED
The Federal Government should be effective
and spend taxpayer dollars wisely. The                  TIGTA recommended that the Chief Financial
proactive management of organization-level              Officer develop procedures to guide the risk
risks is critical to the Internal Revenue               management activities of the ESCs, require the
Service’s (IRS) ability to both meet its strategic      ESCs to post risk information in a readily
objectives and provide stakeholders with                accessible location, and require the ESCs to
confidence that it is operating effectively and         notify the Chief Financial Officer when a new
efficiently.                                            ESC is implemented. TIGTA also
                                                        recommended that the Director, Office of
WHY TIGTA DID THE AUDIT                                 Research, Analysis, and Statistics, develop
This audit was initiated to determine whether the       procedures requiring the review of risk
IRS has an efficient process for managing risks         management activities of the ESCs on a routine
to the achievement of its strategic objectives.         basis. Finally, TIGTA recommended that the
This review is part of our Fiscal Year 2011             Chief Financial Officer and the Director, Office of
Annual Audit Plan and addresses the major               Research, Analysis, and Statistics, jointly
management challenge of Leveraging Data to              monitor and evaluate the MITS organization’s
Improve Program Effectiveness and Reduce                risk management initiative to study the potential
Costs.                                                  benefits in moving towards a more formal
                                                        IRS-wide risk management process.
WHAT TIGTA FOUND
                                                        IRS management agreed with two
The IRS can take additional actions to improve          recommendations. Management stated they
its risk management process. Specifically,              plan to compile a list of ESCs and monitor the
TIGTA found that the efficiency of the Executive        MITS organization’s risk management initiative.
Steering Committee’s (ESC) risk management              However, management disagreed with our
efforts could be improved by developing                 recommendation to develop procedures to guide
guidelines detailing how the ESCs should                the risk management activities of the ESCs,
identify, assess, address, and monitor risks            require the ESCs to post risk information, and
applicable to their responsible areas. In               perform ongoing reviews of the ESCs’ risk
addition, the IRS should implement a                    management efforts. TIGTA maintains that
methodology that supports the timely sharing of         procedures, better information sharing, and
identified risks between the ESCs. Further,             periodic assessments of the IRS risk process
regular internal reviews of the ESCs’ risk              would provide additional assurance that it is
management activities would assist                      effectively managing corporate risks.
management in ensuring the ESCs are
operating effectively. By taking these actions,
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 2, 2011


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Risk Management Efforts Could Be Improved
                             With Clearly Defined Procedures and Expanded Information Sharing
                             (Audit # 201010020)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) risk
 management process. The overall objective of this review was to determine whether the IRS has
 an efficient process for managing risks to the achievement of its strategic objectives. Our review
 focused specifically on the risk management efforts of the IRS’s Executive Steering Committees
 as this is the overall vehicle the IRS uses to manage organization-level risks. This review is part
 of the Treasury Inspector General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan
 and addresses the major management challenge of Leveraging Data to Improve Program
 Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                    Risk Management Efforts Could Be Improved With Clearly Defined
                            Procedures and Expanded Information Sharing




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Procedures and Better Information Sharing Could Improve
          the Efficiency of the Executive Steering Committees ................................. Page 3
                    Recommendation 1:.......................................................... Page 5

                    Recommendation 2: .................................................................... Page 6

          Additional Analyses of the Internal Revenue Service’s
          Risk Management Practices May Identify Potential Improvements ............ Page 6
                    Recommendation 3:.......................................................... Page 7

                    Recommendation 4:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Management’s Response to the Draft Report ...................... Page 13
        Risk Management Efforts Could Be Improved With Clearly Defined
                Procedures and Expanded Information Sharing




                        Abbreviations

CFO               Chief Financial Officer
ERM               Enterprise Risk Management
ESC               Executive Steering Committee
IRS               Internal Revenue Service
MITS              Modernization and Information Technology Services
OPERA             Office of Program Evaluation and Risk Analysis
                 Risk Management Efforts Could Be Improved With Clearly Defined
                         Procedures and Expanded Information Sharing




                                            Background

In general, risk management can be defined as the identification of possible future events which
may impact the ability of an organization to meet its objectives and the implementation of
actions to address those events. In January 2005, the Government Accountability Office
identified risk management as an area of concern in the Federal Government. For example,
challenges facing the Internal Revenue Service (IRS) include the impact of significant tax law
changes, growing impact of international tax law issues, increased sophistication of efforts to
evade compliance, and increased service expectations by American taxpayers and tax
practitioners.
The IRS is a large and complex organization, comprised of 4 operating divisions and
16 functional offices, with a total staff of more than 94,000 employees. In order to address areas
of significant organization-level concerns, IRS senior management utilizes 26 Executive Steering
Committees (ESC) that are generally comprised of representatives from multiple IRS functions.
The ESCs cover a broad scope of issue areas, including human capital, data security,
infrastructure enhancements, taxpayer compliance, operational readiness, and legislative changes
(such as implementation of the recently enacted health care legislation). The IRS’s risk
management efforts are also broadly supported by its 5-year strategic plan, which identifies its
overall program goals and anticipated general risk areas.
Enterprise risk management (ERM) is an emerging discipline whereby an organization
implements a process across the organization designed to identify potential events that may
affect the organization and manage risk to provide reasonable assurance regarding the
achievement of organizational objectives. A fundamental concept of ERM is that it considers
activities at all levels of the organization and identifies entity-wide risks. This structure is
supported in some organizations, especially those that are larger and more complex, by a
dedicated executive and staff specifically responsible for organizational risk management.
Guidance regarding ERM practices has been developed by a number of private and government
organizations and continues to be expanded. For example, the Committee of Sponsoring
Organizations1 published an ERM framework in September 2004 to assist entities in moving
towards a fuller risk management process. According to the Committee of Sponsoring
Organizations, a proactive approach to risk management is necessary and includes processes and



1
  The Committee of Sponsoring Organizations is a voluntary private-sector organization, established in the United
States, dedicated to providing guidance to executive management and governance entities on critical aspects of
organizational governance, business ethics, internal control, enterprise risk management, fraud, and financial
reporting.
                                                                                                           Page 1
               Risk Management Efforts Could Be Improved With Clearly Defined
                       Procedures and Expanded Information Sharing



activities that are intertwined within an organization’s core activities so that risk management is
performed on an ongoing, consistent basis by employees throughout an organization.
This review was performed at the IRS Headquarters offices of the Chief Financial Officer
(CFO); the Office of Research, Analysis, and Statistics; and the Tax Exempt and Government
Entities Division in Washington, D.C.; the Modernization and Information Technology Services
(MITS) organization and the Small Business/Self-Employed Division in New Carrollton,
Maryland; the Wage and Investment Division in Atlanta, Georgia; and the Large Business and
International Division in Chicago, Illinois, during the period September 2010 through May 2011.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                             Page 2
               Risk Management Efforts Could Be Improved With Clearly Defined
                       Procedures and Expanded Information Sharing




                                 Results of Review

We believe the IRS can take additional actions to improve its risk management process.
Specifically, we found that the efficiency of the ESCs’ risk management efforts could be
improved by developing guidelines detailing how the ESCs should identify, assess, address, and
monitor risks applicable to their responsible areas. In addition, the IRS should implement a
methodology that supports the timely sharing of identified risks between the ESCs. Further,
regular internal reviews of the ESCs’ risk management activities would assist management in
ensuring the ESCs are operating effectively and coordinating appropriately. By taking these
actions, we believe the IRS can better ensure its risk activities are effectively coordinated and its
resources are allocated efficiently to manage risks that may impact its ability to achieve
organizational goals.
We determined that the MITS organization is in the early stages of developing a formalized,
integrated risk management framework to manage information technology risks. Specifically,
MITS management is implementing a dedicated group, headed by a senior executive, to
specifically focus on managing risks applicable to IRS information technology. We believe this
initiative should be continually monitored by the IRS to study the potential benefits, costs, and
steps involved in moving long term towards a more formal IRS-wide risk management process
supported by a dedicated senior executive and supporting staff.

Procedures and Better Information Sharing Could Improve the
Efficiency of the Executive Steering Committees
An integral part of the IRS’s efforts to address and monitor organization-level risks to its
strategic objectives is the work performed by its ESCs. The dynamic and cross organizational
nature of the ESCs allows the IRS the opportunity to quickly apply resources to address and
monitor IRS-wide risks in emerging areas of high concern via the creation of new ESCs. In
addition, because the ESCs are comprised of a cross section of senior managers representing the
IRS’s various functions, this approach helps ensure strong executive involvement in risk
management activities performed. However, we found the efficiency of the ESCs’ risk
management efforts could be improved by developing clearly defined procedures and a
methodology supporting the timely sharing of information on risks identified.
Specifically, we found the IRS has not developed policies and procedures to guide the risk
management activities of the ESCs. As a result, each ESC must develop its own approach for
determining how risks will be identified, assessed, addressed, and monitored.
During our review, the IRS was unable to provide us with a comprehensive list of the ESCs
currently in operation and whether any risks were being addressed by those ESCs. Based on our

                                                                                              Page 3
               Risk Management Efforts Could Be Improved With Clearly Defined
                       Procedures and Expanded Information Sharing



research, we determined that there were 26 ESCs active (i.e., meeting regularly) at the time of
our review. We reviewed the charters of 16 sampled ESCs and found that only 10 charters
included a reference to the ESCs’ responsibilities regarding risk management. Further, we
reviewed the risk management of five randomly selected ESCs and found the methodologies
used by the five ESCs to identify, assess, address, and monitor the risks identified varied
significantly in form and level of detail. For example, only one of the five ESCs we evaluated
had a clearly defined methodology for assessing risk.
In addition, we determined that the ESCs can more effectively coordinate their efforts to share
risk management practices with other ESCs and senior IRS operating division management.
Specifically, the ESCs we reviewed generally did not post information regarding risks in a
location readily accessible to other ESCs or other IRS organizational users, including its
operating divisions and functional offices. As a result, it is difficult for IRS managers to timely
identify crosscutting organizational risks. Although the sharing of risk information is somewhat
supported by the IRS’s practice of having some senior managers participate in multiple ESCs,
we do not believe that this practice alone is sufficient to fully support the sharing of risk
information. In addition, the lack of a centralized inventory of the active ESCs (and the risks
they are addressing) significantly impacts the efficiency of the risk management process.
A risk management program should include developing policies and procedures that outline the
organization’s expectations regarding the management of risks and document the process to
ensure it operates effectively. Although the IRS CFO has overall responsibility for supporting
the risk management efforts of the IRS, he or she has not yet developed guidelines and
procedures to guide the efforts of the ESCs in identifying, assessing, addressing, and monitoring
organizational risks or a methodology supporting the sharing of information on risks identified.
Further complicating the CFO’s efforts, there are no specific procedures that require any function
within the IRS to notify the CFO when a new ESC is being formed. As a result, neither the CFO
nor any other function within the IRS maintains a current list of all active ESCs, their areas of
focus, and specific risks they are responsible for addressing.
The ESCs play a critical role in the IRS’s efforts to both meet its objectives and provide
stakeholders with confidence that it is operating effectively and efficiently. Without clearly
defined procedures that outline the IRS’s expectations regarding how risks to organizational
objectives should be identified, assessed, addressed, and monitored, each new ESC must expend
valuable time and resources developing its own risk management process rather than focusing
directly on the concern it was created to address. Similarly, the lack of readily available ESC
risk information impedes the sharing of this information among senior IRS executive
management. The need to share risk information is significant given the interrelated nature of
the areas addressed by the IRS’s various ESCs. Clearly defined procedures and increased
coordination will assist the IRS in effectively managing corporate risks that may impact its
ability to achieve organizational goals.


                                                                                             Page 4
              Risk Management Efforts Could Be Improved With Clearly Defined
                      Procedures and Expanded Information Sharing



Recommendations
Recommendation 1: The CFO should develop policies and procedures to support the risk
management activities of the ESCs. These procedures should clearly define the process ESCs
should follow in identifying, assessing, addressing, and monitoring risks. In addition, the
procedures should require the ESCs to post the risks they are addressing in a location readily
accessible to other ESCs and other users.
       Management’s Response: CFO management disagreed with this recommendation.
       Management stated that each ESC uses risk processes appropriate to its function and
       requiring all ESCs to adhere to a rigid set of policies and procedures may constrain the
       options for addressing those challenges. However, management did agree to develop limited
       guidance that allows for flexibility in assessing risks, as needed. CFO management
       disagreed with establishing procedures that require the ESCs to post the risks they are
       addressing in a location readily accessible to other ESCs and other users, stating it would
       not be beneficial. Management stated that ESCs share information, including risks as
       appropriate, with relevant business units, and variances in issue and risk tracking are
       addressed separately when ESCs have overlap on pertinent issues. Management also
       stated that IRS risks and their resolutions change frequently, and having a repository
       would make the Governance process burdensome and would not add value. Management
       also believes that the resources required to maintain such a repository are not justifiable.
       Office of Audit Comment: While the IRS disagreed with the recommendation, it did
       agree to develop limited guidance for assessing risks, as needed. This type of guidance
       would meet the intent of our recommendation if it assists the ESCs in considering how risks
       will be identified, assessed, addressed, and monitored. We believe this type of guidance
       would help the IRS in better managing corporate risks by ensuring a more comprehensive
       approach to risk management and minimizing duplication of effort by allowing the ESCs
       to customize a risk management approach based on the general guidance rather than
       developing one on their own. In addition, we still believe making ESC risk information
       readily available will facilitate senior IRS executive management in identifying and
       sharing crosscutting organizational risks in a more timely and efficient manner and
       prevent potential conflicting solutions for addressing these risks. The ESCs can also
       benefit from prior attempts by other ESCs to address crosscutting risks, including
       successes and lessons learned. During the course of our review, we found that many
       ESCs already post key information (such as their meeting minutes) in a location readily
       accessible to other IRS users. As such, we believe that the ESCs could post applicable
       risk information in a similar manner without expending significant additional resources.
       If the postings are dated, other ESCs can easily determine if the risk information is
       current.



                                                                                            Page 5
                 Risk Management Efforts Could Be Improved With Clearly Defined
                         Procedures and Expanded Information Sharing



Recommendation 2: The CFO should develop procedures requiring any function within the
IRS to notify the CFO whenever a new ESC is being implemented. The CFO should use this
information to maintain a current list of all active ESCs and their areas of focus.
        Management’s Response: CFO management agreed with our recommendation. The
        CFO coordinates completion of the annual Government Accountability Office Internal
        Control Management and Evaluation Checklist to evaluate internal controls and reports
        their status to the Department of the Treasury and the Government Accountability Office.
        In future checklist updates, the CFO plans to add a series of questions designed to
        identify current ESC status as well as identify any new ESCs formed, to serve as the basis
        for compiling a current list of active ESCs annually. The business units will also be
        given guidance outlining specific documentation that should be maintained for all active
        ESCs.

Additional Analyses of the Internal Revenue Service’s Risk
Management Practices May Identify Potential Improvements
We believe regular internal reviews of the ESCs’ risk management activities would assist
management in ensuring the ESCs are operating effectively and coordinating appropriately. In
addition, IRS management should carefully monitor the efforts of the MITS business unit in
establishing a formal risk management framework led by a dedicated executive to study the
potential benefits, costs, and steps involved in moving long term towards a more formal
IRS-wide risk management process.
Monitoring the effectiveness of risk management activities is a key component of a properly
functioning risk management process. The Standards for Internal Control in the Federal
Government state that control activities are an integral part of an entity’s planning,
implementing, reviewing, and accountability for stewardship of government resources and
achieving effective results. One key activity in this area is management reviews to compare
actual performance to planned or expected results throughout the organization and analyze
significant differences.

Regular reviews of the ESCs would assist management in identifying potential
improvements in their risk management practices
Within the IRS, the Office of Program Evaluation and Risk Analysis (OPERA), which is located
within the Office of Research, Analysis, and Statistics, has overall responsibly for evaluating risk
management. However, we found that the OPERA has not performed a review of the risk
management efforts of the ESCs since April 2006.2


2
 In performing the 2006 review, the OPERA collaborated with the National Academy of Science to evaluate, via
case studies and observations, the IRS’s ERM capabilities.
                                                                                                       Page 6
               Risk Management Efforts Could Be Improved With Clearly Defined
                       Procedures and Expanded Information Sharing



Although IRS procedures assign responsibility for the performance of risk management reviews
to the OPERA, they do not specifically require periodic internal reviews of the IRS’s risk
management process. The reviews could serve a critical purpose by allowing the IRS to ensure
risks are continually identified, assessed, addressed, and monitored to effectively and efficiently
achieve organizational objectives. OPERA management informed us they perform their reviews
primarily based on requests from IRS management rather than on an ongoing or routine basis. In
addition, the general lack of uniform and readily available risk tracking information hinders the
OPERA’s ability to fully review the risk management activities of the ESCs.
Evaluation of the IRS’s risk management process will provide the IRS additional assurance that
risks are timely identified, assessed, addressed, and monitored to effectively and efficiently
achieve organizational objectives. These reviews would also allow the IRS to evaluate the
implementation of any enhancements it makes to its risk management process as a result of
implementing actions to address our first report recommendation.

Continued monitoring of the MITS’ risk management process may identify
potential benefits for a more formal IRS-wide risk management process
During our review, we determined that the MITS organization is in the early stages of
developing a formalized, integrated risk management framework to manage information
technology risks. Specifically, MITS organization management is implementing a dedicated
group, headed by a senior executive, to focus on managing risks applicable to IRS information
technology.
Although the OPERA provided early input in April 2010 on the MITS organization’s initiative,
Office of Research, Analysis, and Statistics management informed us that they have no plans to
further review this initiative or review the ESCs’ risk management practices. We believe this
initiative should be monitored by the IRS in order to fully evaluate the potential benefits, costs,
and steps involved in moving long term towards a more formal IRS-wide risk management
process supported by a dedicated senior executive and supporting staff. Without a plan to
monitor this initiative, the IRS cannot effectively leverage lessons learned from the
implementation of the MITS organization initiative in any future improvements it decides to
make in IRS-wide risk management efforts.

Recommendations
Recommendation 3: The Director, Research, Analysis, and Statistics, should develop
procedures requiring that the OPERA review the risk management activities of the ESCs on a
periodic basis.
       Management’s Response: IRS management disagreed with our recommendation.
       Specifically, management stated that the OPERA’s role in risk management has been to
       evaluate opportunities for applying risk management and conduct risk analyses at the

                                                                                             Page 7
              Risk Management Efforts Could Be Improved With Clearly Defined
                      Procedures and Expanded Information Sharing



       request of IRS senior leadership. The OPERA serves in an advisory and support role at
       the request of senior leadership and does not have primary responsibility for identifying
       and mitigating risks. The recommendation to develop procedures requiring the review of
       ESC risk management activities on a periodic basis may not provide additional value
       unless focused on specific needs of IRS senior leadership.
       Office of Audit Comment: We recognize that, in general, the OPERA performs its
       work in response to requests from various senior leaders. However, much has changed
       within the IRS’s risk environment since the April 2006 review, including new legislative
       requirements, new executives and managers, and new technology. In addition, ERM
       practices have continued to evolve. Given the OPERA’s extensive past experience in
       reviewing the IRS’s risk management processes, we believe an updated review of the
       current IRS-wide risk management process would provide both IRS executives and
       external stakeholders with additional assurance that the ESCs are operating effectively
       and coordinating appropriately.
Recommendation 4: The CFO and the Director, Research, Analysis, and Statistics, should
jointly monitor and evaluate the MITS organization risk management initiative in order to
incorporate lessons learned from the implementation and study of the potential benefits, costs,
and steps involved in moving towards a more formal IRS-wide risk management process.
       Management’s Response: IRS management agreed with our recommendation and
       stated that the OPERA plans to serve as an advisor to MITS organization senior
       management in monitoring and evaluating the MITS organization risk management
       initiative. The MITS organization initiative is expected to clarify MITS organization
       Enterprise Governance committee responsibilities and create downstream dependence on
       its ESCs to provide input to support investment recommendations. To address
       anticipated increased emphasis on the ESC role in investment management, the MITS
       organization Governance office is compiling information on the roles and responsibilities
       outlined in each ESC charter. The results will be used to identify improvement
       opportunities for information technology governance and to develop recommended
       enhancements (if any) for consideration by the MITS organization Enterprise Governance
       committee. The CFO will review the MITS organization findings and consider their
       applicability to an overall IRS-wide risk management process.




                                                                                           Page 8
               Risk Management Efforts Could Be Improved With Clearly Defined
                       Procedures and Expanded Information Sharing



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has an efficient process
for managing risks to the achievement of its strategic objectives. To accomplish this objective,
we:
I.     Determined whether the IRS has established an overall framework to guide its efforts to
       manage risks to the achievement of its strategic objectives.
       A. Researched the IRS intranet (including the OPERA and the CFO web sites) and the
          Internal Revenue Manual to identify any applicable policies and procedures that
          guide the IRS’s risk management process.
       B. Analyzed the policies and procedures that guide the IRS’s overall risk management
          process.
       C. Identified and evaluated any guidance or support provided by the OPERA in assisting
          the IRS with its development of an overall ERM framework.
       D. Identified and evaluated any guidance or support provided by the CFO related to the
          IRS’s ERM framework.
II.    Assessed whether the IRS has implemented a comprehensive risk management process to
       effectively and proactively identify, assess, address, and monitor risks to the achievement
       of its strategic objectives.
       A. Determined the ESCs’ role in proactively identifying, assessing, addressing, and
          monitoring risks.
           1. Based on our research and information provided by the CFO and the OPERA, we
              identified a population of 26 ESCs that were active in Fiscal Year 2010. Of the
              26 active ESCs, we found that 9 were crosscutting and 17 were non-crosscutting.
              We selected a random sample of seven non-crosscutting ESCs. We further
              analyzed the charter and meeting minutes of the seven sampled non-crosscutting
              ESCs and all nine of the crosscutting ESCs.
           2. Utilizing a questionnaire, evaluated the methods used by the ESCs in managing
              risks. The questionnaire was provided to a random sample of five crosscutting
              ESCs.
       B. Evaluated coordination between the ESCs and the IRS’s four operating divisions and
          the MITS organization in the management of risks to strategic objectives.

                                                                                           Page 9
              Risk Management Efforts Could Be Improved With Clearly Defined
                      Procedures and Expanded Information Sharing



       C. Evaluated how the OPERA and the CFO provide oversight over the management of
          risks by the ESCs.
III.   Determined whether the IRS is effectively communicating and coordinating risk
       information developed as a result of the efforts of the ESCs.
       A. Reviewed the OPERA’s relationship with CFO management in regards to sharing risk
          information.
       B. Evaluated whether five randomly selected ESCs have a risk reporting relationship
          with CFO management and whether the results of their risk management activities are
          shared with key stakeholders.
       C. Determined how CFO management uses strategic planning information in the risk
          management activities of the ESCs.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies and procedures for
managing risks to the achievement of its strategic objectives. We evaluated these controls by
interviewing management, reviewing a sample of the ESCs, and reviewing applicable
documentation.




                                                                                        Page 10
             Risk Management Efforts Could Be Improved With Clearly Defined
                     Procedures and Expanded Information Sharing



                                                                            Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Kanika Kals, Lead Auditor
Yasmin Ryan, Senior Auditor
Autumn Gill, Evaluator
Dana Karaffa, Evaluator




                                                                                   Page 11
              Risk Management Efforts Could Be Improved With Clearly Defined
                      Procedures and Expanded Information Sharing



                                                                      Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Director, Office of Research, Analysis and Statistics OS:RAS




                                                                            Page 12
   Risk Management Efforts Could Be Improved With Clearly Defined
           Procedures and Expanded Information Sharing



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
Risk Management Efforts Could Be Improved With Clearly Defined
        Procedures and Expanded Information Sharing




                                                        Page 14
Risk Management Efforts Could Be Improved With Clearly Defined
        Procedures and Expanded Information Sharing




                                                        Page 15
Risk Management Efforts Could Be Improved With Clearly Defined
        Procedures and Expanded Information Sharing




                                                        Page 16
